No. 19-889

IN THE

Supreme Court of the United States
KAUFMAN COUNTY; MATTHEW HINDS,
PETITIONERS,

v.
EUNICE J. WINZER, INDIVIDUALLY AND ON BEHALF
OF THE STATUTORY BENEFICIARIES OF GABRIEL A. WINZER;
SOHELIA WINZER; HENRY WINZER, RESPONDENTS.
ON A PETITION FOR CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

BRIEF FOR AMICI CURIAE TEXAS ASSOCIATION OF
COUNTIES, TEXAS MUNICIPAL LEAGUE, TEXAS
MUNICIPAL LEAGUE INTERGOVERNMENTAL RISK
POOL, MISSISSIPPI MUNICIPAL SERVICE COMPANY,
AND NATIONAL ASSOCIATION OF POLICE
ORGANIZATION IN SUPPORT OF PETITIONERS

As required by Supreme Court Rule 33.1(h), I certify that the
document contains 2899 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on 2/18/20
_____________________
ROD CURRY
CURRY & TAYLOR LLC
111 SECOND AVE NE
SUITE 300
ST. PETERSBURG, FL 33701
(202) 350-9073

